U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 12, 2020
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: William P. Barr, Attorney General, Et Al. v. Earlene Peterson, Kimma Gurel,
and Monica Veillette, No. 20A5 (Capital Case)
Dear Mr. Harris:
The government respectfully withdraws the stay application that it filed in this case earlier
today because the court of appeals has now granted the relief sought in that application. As the
government explained in its application, the government’s request for a stay or vacatur of the
district court’s order was still pending before the court of appeals when the government sought
relief from this Court. Stay Appl. 6, 12. This evening, the court of appeals issued the attached
decision vacating the district court’s preliminary injunction on the ground that respondents’ “APA
claim lacks any arguable legal basis and is therefore frivolous.” Slip Op. 4. Because the relief
requested from this Court in the stay application is no longer necessary, the government
respectfully withdraws the application.
Sincerely,
/s/ Jeffrey B. Wall
Jeffrey B. Wall
Acting Solicitor General

cc: Counsel of Record

SERVICE LIST: 20A-BARR V. PETERSON, ET AL.
Howard Baker Kurrus
H. Baker Kurrus, PLLC
10816 Crestdale Lane
Little Rock, AR 72212
501-831-0325
bkurrus@aol.com
Matthew M. Collette
Massey & Gail LLP
1000 Maine Avenue, SW, Suite 450
Washington, DC 20024
202-795-3326
mcollette@masseygail.com

